                     OFFICE OF
             THE INSPECTOR GENERAL
                   U.S. NUCLEAR
             REGULATORY COMMISSION



                Audit of NRC’s Telecommunications Program

                         OIG-05-A-13      June 7, 2005




                      AUDIT REPORT




All publicly available OIG reports (including this report) are accessible through
                              NRC’s Web site at:
             http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                          June 7, 2005




MEMORANDUM TO:              Luis A. Reyes
                            Executive Director for Operations



FROM:                       Stephen D. Dingbaum/RA/
                            Assistant Inspector General for Audits


SUBJECT:                    AUDIT OF NRC’S TELECOMMUNICATIONS
                            PROGRAM (OIG-05-A-13)


Attached is the Office of the Inspector General’s (OIG) audit report titled, Audit of
NRC’s Telecommunications Program.

This audit found that improvements are needed to strengthen controls over the
use of the Nuclear Regulatory Commission’s (NRC) telecommunications services
and the physical security of NRC telecommunications systems. Specifically,
NRC’s telecommunications program oversight does not ensure that:

   ¾ Employees and contractors are using NRC’s telephone system
     appropriately and that phone bills are accurate.
   ¾ Employees are consistently using the Government calling card for long-
     distance calls while on official travel.
   ¾ The agency’s secure cell phone users are receiving the best possible
     coverage to meet their needs.
   ¾ Physical security requirements are enforced pertaining to telephone
     equipment closets.

During an exit conference held May 18, 2005, the agency generally agreed with
the findings and recommendations in this audit report and provided comments
concerning the draft audit report. We modified the report as we determined
appropriate in response to these comments. NRC reviewed these modifications
and opted not to submit formal written comments to this final version of the
report.

If you have any questions, please call Beth Serepca at 415-5911 or me at
415-5915.

Attachment: As stated
Distribution

John T. Larkins, Executive Director, Advisory Committee on Reactor
 Safeguards/Advisory Committee on Nuclear Waste
G. Paul Bollwerk, III, Chief Administrative Judge, Atomic Safety and
 Licensing Board Panel
Karen D. Cyr, General Counsel
John F. Cordes, Jr., Director, Office of Commission Appellate Adjudication
Jesse L. Funches, Chief Financial Officer
Janice Dunn Lee, Director, Office of International Programs
William N. Outlaw, Director of Communications
William N. Outlaw, Acting Director, Office of Congressional Affairs
Eliot B. Brenner, Director, Office of Public Affairs
Annette Vietti-Cook, Secretary of the Commission
William F. Kane, Deputy Executive Director for Reactor
  and Preparedness Programs, OEDO
Martin J. Virgilio, Deputy Executive Director for Materials, Research, State
  and Compliance Programs, OEDO
Jacqueline E. Silber, Deputy Executive Director for Information Services
   and Administration, and Chief Information Officer, OEDO
William M. Dean, Assistant for Operations, OEDO
Timothy F. Hagan, Director, Office of Administration
Frank J. Congel, Director, Office of Enforcement
Guy P. Caputo, Director, Office of Investigations
Edward T. Baker, Director, Office of Information Services
James F. McDermott, Acting Director, Office of Human Resources
Corenthis B. Kelley, Director, Office of Small Business and Civil Rights
Jack R. Strosnider, Director, Office of Nuclear Material Safety and Safeguards
James E. Dyer, Director, Office of Nuclear Reactor Regulation
Carl J. Paperiello, Director, Office of Nuclear Regulatory Research
Paul H. Lohaus, Director, Office of State and Tribal Programs
Roy P. Zimmerman, Director, Office of Nuclear Security and Incident Response
Samuel J. Collins, Regional Administrator, Region I
William D. Travers, Regional Administrator, Region II
James L. Caldwell, Regional Administrator, Region III
Bruce S. Mallett, Regional Administrator, Region IV
                                              Audit of NRC’s Telecommunications Program



EXECUTIVE SUMMARY

BACKGROUND

             The Nuclear Regulatory Commission’s (NRC) telecommunications
             program includes local and long-distance voice services, voicemail,
             videoconferencing, and personnel communications equipment
             (e.g., calling cards, cell phones). The Office of Information
             Services (OIS) provides overall guidance and direction for the
             agency’s non-secure telecommunications systems and equipment.
             The Office of Nuclear Security and Incident Response manages
             NRC’s secure telecommunications systems and equipment. This
             audit focused primarily on the agency’s non-secure
             telecommunications systems, although auditors also reviewed the
             agency’s use of secure cell phones.

PURPOSE

             The audit objectives were to evaluate (1) controls over the use of
             NRC telecommunications services and (2) the physical security of
             NRC telecommunications systems.

RESULTS IN BRIEF

             Improvements are needed to strengthen controls over the use of
             NRC’s telecommunications services and the physical security of
             NRC telecommunications systems. NRC’s telecommunications
             program oversight does not ensure that:

             ¾ Employees and contractors are using NRC’s telephone system
               appropriately and that phone bills are accurate.
             ¾ Employees are consistently using the Government calling card
               for long-distance calls while on official travel.
             ¾ The agency’s secure cell phone users are receiving the best
               possible coverage to meet their needs.
             ¾ Physical security requirements are enforced pertaining to
               telephone equipment closets.

             Appropriate Usage Is Not Ensured

             NRC’s telecommunications program oversight does not ensure that
             employees and contractors are using NRC’s telephone system
             appropriately and that phone bills are accurate. Specifically,

             ¾ OIS performs subjective and limited billing reviews that do not
               fulfill the requirements in MD and Handbook 2.3.


                                       i
                                  Audit of NRC’s Telecommunications Program



¾ OIS does not conduct sufficient inventories to ensure that all
  phone lines and circuits for which NRC pays each month are
  used and necessary.
¾ OIS does not restrict use of the headquarters toll-free number in
  accordance with MD and Handbook 2.3 requirements.

As a result, the agency cannot determine if vendor charges are
accurate and fails to control the use of telecommunications services
by employees and contractors.

       Calling Card Is Not Used Consistently Agencywide

Many employees do not use the Government calling card to make
permitted phone calls home while on official travel although the
calling card is the agency’s preferred vehicle for making these calls.
This failure to rely on the calling card occurs because OIS has not
been effective in communicating the preference for calling card use
to employees and because NRC allows an alternative but more
costly means for calling home. As a result, NRC is needlessly
spending roughly $31,600 per year more than is necessary to pay
for travelers’ telephone calls home.

       Secure Cell Phone Coverage Is Unreliable

NRC secure cell phone users may not be receiving the best
domestic secure cell phone coverage available today. This is
because NRC opted to purchase cell phones and service that allow
international coverage even though this may not be the best choice
for domestic coverage. As a result, these cell phones have failed to
provide connectivity in several situations where users wanted
secure calling capability. NRC needs to reevaluate available
options and allow users to select the option that best meets their
coverage and service needs.

       Unsecured Telephone Closets in Headquarters and at
       Technical Training Center

Auditors found unsecured telephone equipment closets at NRC
headquarters and at the Technical Training Center. In
headquarters, three telephone closets were found either unlocked
or opened. This was because NRC has not effectively enforced the
requirement to keep the doors locked and has not clearly conveyed
to security guards the requirement to check these doors daily. At
the Technical Training Center, the telephone closet is not secured




                           ii
                                            Audit of NRC’s Telecommunications Program



          because managers allowed the telephone closet to remain behind
          an unlocked bi-fold closet door. In either case, agency telephone
          systems and other equipment maintained in these locations are
          vulnerable to tampering.

RECOMMENDATIONS

          A consolidated list of recommendations appears on pp. 25-26 of
          this report.

AGENCY COMMENTS

          During an exit conference held May 18, 2005, the agency generally
          agreed with the findings and recommendations in this audit report
          and provided comments concerning the draft audit report. We
          modified the report as we determined appropriate in response to
          these comments. NRC reviewed these modifications and opted not
          to submit formal written comments to this final version of the report.




                                     iii
                       Audit of NRC’s Telecommunications Program




[Page intentionally left blank.]




               iv
                                  Audit of NRC’s Telecommunications Program



ABBREVIATIONS AND ACRONYMS

       FTS     Federal Telecommunications System

       GSA     U.S. General Services Administration

       MD      Management Directive

       NIST    National Institute of Standards and Technology

       NRC     U.S. Nuclear Regulatory Commission

       OIG     Office of the Inspector General (NRC)

       OIS     Office of Information Services (NRC)

       PBX     private branch exchange

       TTC     Technical Training Center

       WITS    Washington Interagency Telecommunications System




                           v
                       Audit of NRC’s Telecommunications Program




[Page intentionally left blank.]




               vi
                                                               Audit of NRC’s Telecommunications Program



TABLE OF CONTENTS

    EXECUTIVE SUMMARY............................................................................. i
    ABBREVIATIONS AND ACRONYMS ........................................................ v
    I. BACKGROUND .................................................................................... 1
    II. PURPOSE ............................................................................................ 4
    III. FINDINGS............................................................................................. 5
    A. Telecommunications Services Oversight Is Inadequate ....................... 5

             A.1       Headquarters Billing Reviews Do Not Meet
                       Requirements ....................................................................... 5
             A.2       Routine Telephone Line and Circuit Inventories
                       Are Not Conducted ............................................................... 9
             A.3       Headquarters Does Not Restrict Use of Its Toll-
                       Free Number....................................................................... 11

    B. Calling Card Is Not Used Consistently Agencywide............................ 14

    C. Secure Cell Phone Coverage Is Unreliable......................................... 17

    D. Unsecured Telephone Closets in Headquarters and at Technical
       Training Center ................................................................................... 20

             D.1.      Headquarters Closets Were Found Unsecured .................. 20
             D.2.      Technical Training Center – Open Access to the Telephone
                       Closet ................................................................................. 23

    IV. AGENCY COMMENTS....................................................................... 24
    V. CONSOLIDATED LIST OF RECOMMENDATIONS ........................... 25



    APPENDIXES

             A.      SCOPE AND METHODOLOGY ............................................ 27
             B.      PHYSICAL SECURITY MEASURES FOR REGIONAL PBX
                     SWITCHES ........................................................................... 29




                                                   vii
                       Audit of NRC’s Telecommunications Program




[Page intentionally left blank.]




              viii
                                                         Audit of NRC’s Telecommunications Program



I. BACKGROUND


                  NRC’s telecommunications program is fundamental to the agency’s
                  mission to protect public health and safety and the environment
                  while maintaining an open regulatory process. It is essential that
                  NRC staff have dependable tools and services to enable
                  communication internally and with government and industry officials
                  24 hours a day, 7 days a week. In this way, NRC can also ensure
                  that important information is communicated to the public in an
                  effective, efficient, and timely fashion.

                  Telecommunications Program

                  NRC’s telecommunications program is composed of all NRC
                  telecommunications systems, including local and long-distance
                  voice services, voicemail, videoconferencing, and personnel
                  communications equipment (e.g., calling cards, cell phones). OIS
                  provides overall guidance and direction for the agency’s regular
                  (i.e., non-secure) telecommunications systems and equipment.
                  The Office of Nuclear Security and Incident Response manages
                  NRC’s secure telecommunications systems and equipment. This
                  audit focused primarily on the agency’s non-secure
                  telecommunications systems, although auditors also reviewed the
                  agency’s use of secure cell phones.

                  Program management and oversight for the agency’s non-secure
                  telecommunications systems and equipment is largely
                  decentralized. Headquarters provides operational and
                  administrative support for its systems and services, and the regions
                  oversee most aspects of their telecommunications programs. An
                  exception is long-distance service, which headquarters manages
                  for the entire agency. In headquarters, the Infrastructure and
                  Computer Operations Division, Computer Operations and
                  Telecommunications Branch, OIS, provides telecommunications
                  support and oversight. In each regional office, the Information
                  Resources Branch provides this function.1 Region II provides
                  support and oversight for the Technical Training Center.




1
    In Region IV, this office is the Information Resources and Management Branch.


                                                 1
                                   Audit of NRC’s Telecommunications Program



NRC headquarters, regional offices, and the Technical Training
Center have different local service contracts, but share the same
contract for long-distance service. Local telephone service for
headquarters is provided through the Washington Interagency
Telecommunications System contract (WITS2001) with the General
Services Administration (GSA). Each region and the Technical
Training Center has procured its own local telephone service with
providers in its vicinity. Agency long-distance service is provided
through the Federal Telecommunications System contract
(FTS2001) with GSA.

OIS staff are working to revise Management Directive (MD) and
Handbook 2.3, Telecommunications, dated January 22, 1993. MD
and Handbook 2.3 provide agencywide policies and procedures for
use of the agency’s telecommunications infrastructure. OIS
managers decided not to finalize the revision until completion of this
audit to ensure that the updated telecommunications guidance
addresses issues raised in the audit report.

Computerized Telephone Switches

Headquarters and the regions have different levels of control over
the telephone switches used to manage their calls. These switches
are of two different types, one a private branch exchange (PBX)
and the other a Centrex. Both systems are computer-based
devices that can be thought of as small telephone companies. A
telephone switch includes a computer processor with memory that
allows the owning entity’s telecommunications staff to manage
telephone call transfers. The PBX is usually housed and
maintained by the owning entity (e.g., Government agency,
company) specifically for its own use as in the case of regional
offices I and III. The Centrex switch is usually housed and
maintained by the local telephone company and services many
customers.

A Centrex telephone switch, owned and operated by Verizon,
under a contract with GSA, allows GSA to manage telephone calls
to and from Headquarters. Telephone lines are run by the service
provider from the offsite switch to the headquarters buildings’ main
telephone demarcation rooms to service the offices within. These
lines are then extended from the lower level demarcation rooms
vertically to telephone closets located on all floors of each building,
excluding the lobby level, using building cable which is maintained
by the NRC telecommunications staff. These extensions are then
run horizontally from the closets to specific office spaces where the
corresponding telephone numbers are assigned.



                            2
                                  Audit of NRC’s Telecommunications Program



Regions I, III, and IV own and maintain their telephone switches.
Region II has use of a GSA telephone switch as part of its office
space lease agreement. The Technical Training Center (TTC) uses
GSA-provided Centrex service from a telephone switch owned by
the Bell South telephone company.

According to the National Institute of Standards and Technology,
PBX switch protection is a high priority because unprotected PBX
switches make users susceptible to toll fraud, disclosure of
sensitive information through eavesdropping, and inconsistent
service. The Department of Homeland Security issued a Homeland
Security Information Bulletin on June 3, 2003, to alert PBX users
about an increase in the number of compromised PBXs and
telephone voice mail systems. The bulletin warns users that these
intrusions allowed unauthorized users to make long-distance
domestic and international telephone calls at the PBX owner’s
expense. The intruders were also able to make similar connections
to Internet service providers.

FY 2003 and FY 2004 Telecommunications Costs

FY 2003 and FY 2004 telecommunications costs for headquarters
and the regions are displayed in the following table.

              Telecommunications Costs
 Locations            FY 2004          FY 2003
 Headquarters          $5,028,000       $5,824,000
 Region I                 229,000          155,000
 Region II                317,000          335,000
 Region III               217,000          257,000
 Region IV                306,000          352,000
 TTC                       42,000           43,000
 Total                 $6,139,000       $6,966,000

Headquarters costs include agency long-distance charges and
charges for local phone service, voicemail, voice/data infrastructure
and support, cell phones, pagers, videoconferencing, and the NRC
Message Center services provided by headquarters operators.
Regional costs include local and resident site dial tone charges, cell
phones, pagers, and other items, but do not include long-distance
charges as these are paid for by headquarters.




                           3
                                           Audit of NRC’s Telecommunications Program



         Cell Phones

         OIS pays for and manages most of the cell phones issued to
         headquarters employees for business purposes, and each region
         pays for and manages the cell phones it issues to its employees.
         NRC is currently exploring a plan to reimburse employees for
         official use of personal cell phones. On November 16, 2004, the
         Office of General Counsel stated it had no legal objections to a
         recent proposal submitted jointly by OIS and the Office of the Chief
         Financial Officer on this subject. According to the proposal, NRC is
         considering to offer three service level plans to designated
         employees. Service plan assignments would be based on the
         agency’s determination of the minimum service level each
         employee would need to fulfill his or her job duties.

         Secure Cell Phones

         The Office of Nuclear Security and Incident Response manages the
         agency’s secure telecommunications systems and equipment,
         including secure cell phones. During FY 2002 and FY 2003,
         officials from that office purchased 20 secure cell phones at a total
         cost of approximately $43,580. Service costs for these phones
         totaled approximately $19,600 in FY 2004 and are expected to be
         similar during FY 2005. Between January and February 2004, the
         office purchased 20 more secure cell phones.


II. PURPOSE


         The audit objectives were to evaluate (1) controls over the use of
         NRC telecommunications services and (2) the physical security of
         NRC telecommunications systems. Appendix A contains
         information on the audit scope and methodology.




                                    4
                                                Audit of NRC’s Telecommunications Program



III. FINDINGS

            Improvements are needed to strengthen controls over the use of
            NRC’s telecommunications services and the physical security of
            NRC telecommunications systems. Specifically, NRC should

            ¾ Improve headquarters oversight of telecommunications services
              with regard to billing reviews, use of agency toll-free numbers,
              and telephone line and circuit inventories.

            ¾ Ensure more consistent use by travelers of the FTS calling card
              for long-distance calls.

            ¾ Provide additional service options for the agency’s secure cell
              phone users to improve coverage.

            ¾ Enforce physical security requirements pertaining to telephone
              equipment closets.

A.   Telecommunications Services Oversight Is Inadequate

         OIS telecommunications program oversight does not ensure that
         employees and contractors are using NRC’s telephone system
         appropriately and that phone bills are accurate. Specifically,

         1. OIS performs subjective and limited billing reviews that do not fulfill
            the requirements in MD and Handbook 2.3.

         2. OIS does not conduct sufficient inventories to ensure that all phone
            lines and circuits for which NRC pays each month are used and
            necessary.

         3. OIS does not restrict use of the headquarters toll-free number in
            accordance with MD and Handbook 2.3 requirements.

         As a result, the agency cannot determine if vendor charges are
         accurate and fails to control the use of telecommunications services by
         employees and contractors.

         A.1 Headquarters Billing Reviews Do Not Meet Requirements

                   Billing Review Guidance

         MD and Handbook 2.3 contain various provisions for a cost-effective
         telecommunications program. These provisions require (1) employees
         to use Government telecommunications services responsibly and in


                                        5
                                                        Audit of NRC’s Telecommunications Program



            accordance with requirements, (2) managers to provide oversight to
            ensure that services are used appropriately, and (3) OIS staff to
            conduct billing reviews to ensure that costs align with services
            received. 2 MD and Handbook 2.3 provisions:

            ¾ Prohibit employees from making personal long-distance and
              international calls at the Government’s expense.

            ¾ Limit employee use of Government telephone systems to official
              business and certain limited unofficial purposes (e.g., brief,
              infrequent personal calls that could not reasonably be made at
              another time).

            ¾ Require regional administrators and headquarters office directors to
              review and validate records of long-distance calls provided by OIS
              and initiate administrative action to collect reimbursement for
              unofficial calls.

            ¾ Require OIS to conduct a monthly review of telephone call detail
              records to improve use of the telephone system and reduce overall
              cost.

            ¾ Require OIS to randomly sample cell phone bills on a monthly basis
              and forward the bills to the appropriate office director for approval.

                        Billing Reviews are Limited

                OIS performs subjective and limited billing reviews that do not fulfill
                the requirements in MD and Handbook 2.3. As noted in the
                Background section of this report, OIS oversees local service for
                headquarters and long-distance service for the entire agency.

                OIS staff responsible for examining the local and long-distance bills
                employ subjective methods for their review and said the bills are
                difficult to review in depth because they are voluminous.3 These
                staff said they rely on their experience and general knowledge of
                the telecommunications program to determine if monthly charges
                appear reasonable, but that it is difficult to know for certain that the
                charges are appropriate. They said they consider cost trends and

2
  MD and Handbook 2.3 assign this and other telecommunications responsibilities to the Office of
the Chief Information Officer. This office was renamed on February 1, 2005, to the Office of
Information Services.
3
  OIG reviewed local and long-distance bills from October 2002 through September 2004 and
noted that these bills, which do not reflect cell phone calls, are composed of thousands of
individual calling charges as well as various service costs that vary from month to month. During
this time frame, local charges for headquarters averaged $68,761.33 per month and agency long-
distance charges averaged $105,212.79 per month.


                                               6
                                  Audit of NRC’s Telecommunications Program



large variations in monthly cost. They contact vendors to learn why
such changes occur and seek bill adjustments, if appropriate.
However, the staff do not use any specific benchmarks – or dollar
amounts – to alert them when a monthly bill appears questionable.
Instead, they review only those charges that they subjectively
determine to be questionable, and they do not review call detail
records to identify questionable usage by employees and
contractors. In addition, they do not provide long-distance call
detail records to regional administrators and office directors as
required by MD and Handbook 2.3.

Furthermore, OIS staff make no specific effort to review
international calls to assess whether employees are making such
calls appropriately. Information on international calls is included in
the long-distance monthly bills, but staff do not review these
records. Compounding this is the fact that headquarters operators
place international calls whenever requested by headquarters staff.
The operators are not required to ascertain whether the calls are for
official purposes and have never challenged a request for an
international call. Although the operators maintain a handwritten
log of international calls, no one reviews the log to assess whether
these calls are legitimate.

In addition, OIS managers do not randomly sample cell phone bills
on a monthly basis and provide the bills to office directors, as
required by MD and Handbook 2.3. OIS receives support from a
contractor tasked to review the headquarters cell phone bills for
trends and make recommendations for cost-effective service plan
adjustments. However, the contractor does not look for possible
misuse of services and only inconsistently fulfills requests from
offices to provide their bills for review on a monthly basis.

       OIS Lacks Computer Software for Improved Approach

OIS performs subjective and limited billing reviews because OIS
management (1) does not require staff to adhere to the
requirements in MD and Handbook 2.3 and (2) believes OIS lacks
the computer software for a more rigorous approach. Furthermore,
as currently written, the draft revision of MD and Handbook 2.3 will
be inadequate to ensure an appropriate level of control over the
program.

OIS telecommunications managers did not require adherence to
the MD and Handbook 2.3 bill review requirements partly because
they were unaware that current bill review practices were not in
alignment with agency requirements. However, they also defended



                           7
                                                       Audit of NRC’s Telecommunications Program



               the current approach, noting that in the years since the guidance
               was approved, local and long-distance rates have dropped, making
               time-consuming reviews of call detail records less necessary than
               in the past. They said it is primarily up to agency managers to
               ensure that employees are not misusing the phones (e.g., spending
               inordinate amounts of time making personal phone calls while at
               work). OIG finds it illogical that OIS would impose this expectation
               on managers without providing the resources (i.e., call detail
               records) needed to perform the task. If agency managers are to
               ensure employee accountability with regard to telephone usage, it
               is essential that managers receive the call detail records for their
               offices on a regular basis.

               The OIS managers said that although they would prefer a more
               rigorous review process, they lack telecommunications billing
               review software4 to perform indepth bill reviews each month or to
               provide office directors and regional administrators with the call
               detail records for their jurisdictions. Without computer software,
               they said, manual efforts are too cumbersome and would not be
               cost-beneficial. OIS managers said they have actively pursued the
               purchase of such software even prior to the start of this audit.

               In addition, as currently written, the proposed draft revision of MD
               and Handbook 2.3 will be inadequate to ensure the necessary level
               of control over employee use of telecommunication services. OIG
               reviewed the draft and noted that it contained weaker oversight
               provisions than those in the existing guidance. For example, the
               draft revision of MD and Handbook 2.3 requires office directors and
               regional administrators to review and validate records of usage
               provided by OIS and initiate administrative action to collect
               reimbursement for unauthorized usage, but only “where appropriate
               and economically feasible.” The current version of MD and
               Handbook 2.3 does not contain this type of caveat and therefore
               assures more control over employee use of the services. Similarly,
               the draft version requires OIS to provide information on usage
               “when appropriate and economically feasible.”




4
  Various companies provide telecommunication expense management solutions that allow
Federal agencies to proactively manage, optimize, and validate their telecommunications
infrastructure and bills. Typically, this involves downloading or inputting charges into an
automated database to facilitate review and then running reports to assess whether charges are
appropriate and accurate. Vendors claim these solutions are extremely cost-beneficial and more
than pay for themselves in costs recouped by users.


                                              8
                                                        Audit of NRC’s Telecommunications Program



                        Inappropriate Usage and Charges Not Identified

                As a result of the existing subjective and limited billing review
                process, NRC lacks assurance that vendor charges are appropriate
                and accurate and fails to ensure appropriate use of
                telecommunications services by employees. Because long-
                distance and local call detail records are not reviewed, it is easy for
                employees and contractors to misuse the agency’s
                telecommunication resources. As an example of inadvertent
                misuse, auditors identified that 5,855 local long-distance calls were
                made between December 2, 2002, and July 28, 2004, from NRC’s
                voicemail system to a contractor’s unused pager. These calls cost
                NRC $751.71. While this figure is minimal in comparison with the
                agency’s telecommunications budget, it makes clear that NRC’s
                billing review process is ineffective to identify a large number of
                unwarranted calls and suggests that other potential cases of
                wasted expense could be overlooked.

                A.2 Routine Telephone Line and Circuit Inventories Are Not
                    Conducted

                        Inventory Requirements

                Routine inventories of telephone lines and circuits for which NRC
                pays a recurring monthly charge are essential to ensure that all
                these lines and circuits are used and necessary.5 Although MD
                and Handbook 2.3 require NRC to conduct annual physical
                inventories of telecommunications equipment for which the agency
                pays a recurring charge to assure that vendor billing invoices tally
                with existing equipment, there is no similar requirement to inventory
                agency phone lines and circuits, which are viewed as services and
                not equipment.

                        Routine Inventories Are Not Conducted

                OIS does not conduct routine inventories of the 5,388 phone lines
                and approximately 54 circuits that run through headquarters and for
                which NRC pays recurring monthly charges. According to an OIS
                staff member responsible for managing the headquarters telephone
                lines and circuits, the last thorough inventory of telephone lines was
                conducted about 4 or 5 years ago. This inventory did not include a
                review of telephone circuits. According to the OIS staff member,

5
 According to an OIS staff member, telephone lines are used primarily to carry voice service,
while telephone circuits are high-capacity conduits with greater bandwidths and speeds used to
support data communications for systems such as internetwork communications or
videoconferencing.


                                               9
                                   Audit of NRC’s Telecommunications Program



monthly charges for individual telephone lines range from about
$7.50 to $17, while the charge for individual circuits ranges from
about $200 to $2,000 per month. During FY 2004, NRC incurred
costs of $731,367.21 for headquarters telephone lines. The
amount spent on circuits during the same period is unknown to
OIS, according to the OIS employee. Based on the figures the OIS
employee provided (approximately 54 circuits, costing NRC
between $200 and $2,000 apiece per month), OIG estimates that
NRC spent at least $130,000 for telephone circuits during FY 2004.

While the OIS staff member continually tracks changes and
additions to telephone lines by updating a database with this
information, there is no comparable database of telephone circuits.
In addition, no proactive effort is made to identify telephone lines or
circuits that are no longer in use or needed by the agency. Lines
and circuits become unused when, for example, a system
connection is terminated or an employee leaves the agency.
Without conducting inventories of the telephone lines and circuits,
the staff member said, there is no assurance that NRC is using all
the services for which it pays. Furthermore, the staff member said,
OIS does not know exactly how many circuits NRC has or the exact
amount it pays for these connections.

       Inventory Requirements Are Needed

NRC is not conducting routine inventories of NRC telephone lines
and circuits because there is no requirement to do so.
Telecommunications staff agreed with OIG that routine inventories
of the telephone lines would be a good business practice and a
means to ensure that NRC is paying for needed services only;
however, they said they lack the resources to perform such
inventories and to review usage records to identify unused circuits
and telephone lines.

       Accuracy of Bills Is Unknown

Without conducting routine inventories of telephone lines and
circuits, the agency cannot know whether its telephone bills
accurately reflect the services for which the agency pays month
after month.




                           10
                                    Audit of NRC’s Telecommunications Program



A.3 Headquarters Does Not Restrict Use of Its Toll-Free
    Number

       Guidance on Toll-Free Numbers

NRC headquarters and regional offices provide toll-free numbers to
their staff to use while on travel. According to MD and Handbook
2.3, the headquarters “800 service” (toll-free number) is to be used
by travelers to contact their offices.

MD and Handbook 2.3 are silent concerning regional office use of
their region’s toll-free numbers, but state that the directive and
handbook must be followed by all headquarters and regional
employees.

Headquarters is responsible for paying for all of NRC’s long-
distance charges, including calls made via the toll-free numbers.
During FY 2004, NRC paid $40,668 for toll-free calls. According to
an OIS official, this total was based on a rate of 2 cents per minute
of use.

       Headquarters Usage Does Not Match Guidance

While each of NRC’s four regional offices restricts use of their toll-
free numbers primarily to calls terminating at their offices, this is not
the case in headquarters. In headquarters, toll-free calls are
answered by NRC operators, who connect callers with numbers
inside and outside of headquarters. Operators said they were
permitted to connect travelers with their homes as well as
headquarters numbers, but stated that many requested
connections are not to home or headquarters numbers. They said
they sometimes ask callers for their badge numbers to ensure they
are speaking with an NRC employee. They also may inquire about
the call’s purpose to assure that it is for official business. However,
they said they would not turn down a connection request.

In three of the regional offices, however, toll-free number calls are
connected only to numbers within the regional offices.
Subsequently, even employee requests to be connected to an NRC
resident inspector at a nuclear power plant would be denied. In the
remaining region, toll-free callers are connected to regional office
numbers and to licensee sites, but not to any other numbers.




                            11
                                  Audit of NRC’s Telecommunications Program



      Policy Not Enforced

Headquarters operators connect toll-free callers to numbers outside
of headquarters because OIS management has not required
operators to enforce the MD and Handbook 2.3 requirements.
However, OIS managers expressed differing views on whether this
practice was appropriate. Two managers said this practice should
be allowed because there are occasions where travelers may need
to get in touch with non-headquarters numbers for official purposes.
They said using the toll-free number in this manner is sometimes
the most cost-effective way to facilitate local and long-distance
calling. For example, it may cost NRC less for operators to connect
long-distance callers to numbers outside of headquarters than for
callers to use the commercial telephones in their hotels. A different
manager disagreed and said travelers should use the FTS calling
card (see page 14 for description) to make long-distance calls and
not go through the operators. This manager pointed out that the
toll-free connections cannot be tracked to ensure they were made
for official business purposes, while calling card usage can be
reviewed.

      Agency Cannot Ensure Official Usage

By permitting headquarters operators to freely connect toll-free
callers to local and long-distance numbers outside of headquarters,
OIS cannot ensure that the service is being used for official agency
business only. NRC could be incurring charges for toll-free
connections made for unofficial purposes and has no way to assess
whether this is so. While there may be circumstances where
headquarters and regional toll-free callers should be permitted to
make outside connections, these circumstances need to be well-
defined and oversight and enforcement need to be performed.

Summary

NRC needs to ensure that employees and contractors are using
NRC’s telephone system appropriately and phone bills accurately
reflect services received. By improving its billing review methods,
updating inventory requirements, and clarifying and enforcing its
policy concerning usage of its toll-free numbers, NRC will increase
its control over telecommunications services and their cost
agencywide.




                          12
                                 Audit of NRC’s Telecommunications Program



Recommendations

OIG recommends that the Executive Director for Operations:

1. Purchase and implement billing review software to assist in
   implementing a cost-effective, comprehensive
   telecommunications billing review process.

2. Establish benchmarks for determining if telecommunications
   charges are accurate and appropriate.

3. Revise MD and Handbook 2.3 to include effective management
   controls over headquarters staff use of agency
   telecommunications services.

4. Establish requirements for routinely conducting inventories of
   telephone lines and circuits for which the agency pays monthly
   recurring charges, assessing usage of these telephone lines
   and circuits, and making adjustments to account for unneeded
   telephone lines and circuits.

5. Define and enforce appropriate use of agency toll-free numbers.




                         13
                                               Audit of NRC’s Telecommunications Program



B.   Calling Card Is Not Used Consistently Agencywide

            Many employees do not use the Government calling card to make
            permitted phone calls home while on official travel although the
            calling card is the agency’s preferred vehicle for making these calls.
            This failure to rely on the calling card occurs because OIS has not
            been effective in communicating the preference for calling card use
            to employees and because NRC allows an alternative but more
            costly means for calling home. As a result, NRC is needlessly
            spending roughly $31,600 per year more than is necessary to pay
            for travelers’ telephone calls home.

                   Calling Card Guidance

            According to MD and Handbook 2.3, long-distance service via the
            FTS network should be used to avoid excessive telephone call
            expense whenever practicable. One feature of the FTS long-
            distance contract is the Government calling card, which allows
            employees to make long-distance calls without operator assistance
            through the FTS network while on official travel. Employees may
            use the cards while on official travel to make business calls and to
            make brief calls to their families. The FTS calling card is similar to
            commercial calling cards in that employees may dial in to the
            service from any commercial telephone, enter a code, and then dial
            the number to which they wish to be connected. According to OIS
            managers, long-distance calls made using the calling card cost the
            same (2 cents per minute) as all long-distance calls made over the
            FTS network.

            Information concerning calling card use also appears in some
            regional policies and in hardcopy headquarters telephone
            directories. For example, Region IV guidance directs that all official
            calls from outside the office should be made using the Government
            calling card. Region III guidance encourages staff to use the card
            when making personal calls home in lieu of toll calls, calls billed to
            hotel rooms, or collect calls while on travel status.

            Although the calling card is the preferred method of long-distance
            calling for employees on travel, MD and Handbook 2.3 also note
            that employees traveling for 2 or more nights on Government
            business may be reimbursed up to $4 per day for a brief (defined
            as “approximately 5 minutes”) call home.




                                       14
                                                         Audit of NRC’s Telecommunications Program



                The current revised draft of MD and Handbook 2.3 does not offer
                the $4 per day option, but allows employees traveling and incurring
                lodging costs a brief (defined as “not to exceed 30 minutes per
                day”) call per day to their residence, preferably using the calling
                card.

                        Calling Card Use Not Consistent

                Many NRC employees are not using the Government calling card to
                call home while on travel and are instead requesting
                reimbursements for calls made while they are on travel status. OIG
                auditors reviewed 1,123 travel vouchers processed by the Office of
                the Chief Financial Officer during September 2004 and found that
                the agency was paying an average of $147.50 each day to
                reimburse travelers for phone calls home. The $147.50 was
                composed primarily of $4 per day charges.6 Based on this review,
                auditors estimated that NRC could save about $31,600 each year
                by requiring travelers to use the Government calling card wherever
                possible.7

                Furthermore, there is no documentation to ensure that employee $4
                per day claims for calls home reflect actual use. However, long-
                distance call detail records do track calling card use and therefore
                provide a means of ensuring accountability by users.

                        Better Communication Needed

                OIS has not effectively communicated to employees the agency’s
                preference for calling card use for calls made home while on official
                travel. Furthermore, NRC allows employees an alternative way to
                call home that is more costly.

                While OIS has issued 1,413 calling cards to employees, not all
                travelers possess them and the office does not actively advertise
                their availability. According to an OIS staff member, in the past,
                information concerning calling card availability was conveyed to




6
  While most employees claimed $4 per day for calls made home while on travel, a limited
number claimed amounts less than $4.
7
  Auditors derived the $31,600 figure by multiplying $147.50 by 252 (i.e., average number of
working days per year) and then multiplying the total by 85 percent. This reduction was made to
allow for the fact that the revised MD and Handbook 2.3 anticipate that travelers will make 30-
minute calls home each day, which, at a rate of 2 cents per minute, would cost the agency about
$.60 per day of travel. Use of the calling card would allow the agency to save about 85 percent of
the $4 it now pays out for a call home each day of travel.


                                               15
                                   Audit of NRC’s Telecommunications Program



office information technology coordinators (who are responsible for
making requests to OIS for calling cards) in the past. However,
information on calling cards has not been conveyed recently to
information technology coordinators.

Furthermore, OIS has not tried other methods to inform employees
about calling cards. Such methods could include placing notices
about calling card availability at the headquarters travel office or
alerting Office of the Chief Financial Officer staff to notify
employees whose vouchers include $4 per day reimbursement
requests that the calling cards are available.

Finally, even if travelers are aware of the calling card option, they
may not make the effort to acquire a card because NRC allows all
employees the option to submit $4 per day telephone claims.

       NRC Is Spending More Than Necessary

By not requiring employees to use the Government calling card to
make appropriate calls home while on official travel, NRC is
spending approximately $31,600 per year more than necessary.
The agency also misses an opportunity to collect call detail
information on these calls to ensure that charges are appropriate.
OIS needs to (1) take a proactive approach and inform employees
about the availability and benefits of using the calling cards and (2)
require use of the cards by employees in most travel situations.
Exceptions could be made for infrequent travelers.

Recommendations

OIG recommends that the Executive Director for Operations:

6. Develop and implement a communications plan to better inform
   employees about the availability and benefits of using calling
   cards.

OIG recommends that the Chief Financial Officer:

7. Discontinue the $4 per day reimbursement option and issue
   calling cards instead.




                           16
                                              Audit of NRC’s Telecommunications Program



C.   Secure Cell Phone Coverage Is Unreliable

            NRC secure cell phone users may not be receiving the best
            domestic secure cell phone coverage available today. This is
            because NRC opted to purchase cell phones and service that allow
            international coverage even though this may not be the best choice
            for domestic coverage. As a result, these cell phones have failed to
            provide connectivity in several situations where users wanted
            secure calling capability. NRC needs to reevaluate available
            options and allow users to select the option that best meets their
            coverage and service needs.

                  Secure Cell Phones

            According to MD and Handbook 12.4, NRC Telecommunications
            Systems Security Program, classified or sensitive unclassified voice
            telecommunications should be transmitted over protected systems
            to the maximum degree possible. As part of this program, the
            agency has a limited number of secure cell phones to facilitate
            secure conversations from locations where secure telephones are
            unavailable.

            The National Security Agency approves all cryptographic systems
            and techniques used by the Federal Government. Therefore,
            according to an employee from the Office of Nuclear Security and
            Incident Response (NSIR), the National Security Agency certifies
            the secure cell phone technology and agencies must purchase
            phones and services that use the certified technology.

            MD and Handbook 12.4 predate the agency’s purchase of secure
            cell phones and do not specifically address this type of equipment.
            OIG presumes, however, that NRC expects these cell phones to
            offer the best coverage in as many locations as possible so that
            they can facilitate connectivity whenever and wherever needed.

            Furthermore, according to an NSIR employee, when the agency
            initially purchased the secure cell phones, the intent was that
            employees would use the secure cell phone as their main NRC cell
            phone because the phone offers both secure and regular
            communication capabilities.




                                      17
                                                    Audit of NRC’s Telecommunications Program



                      Many Users Are Dissatisfied With Coverage

               NRC secure cell phone users may not be receiving the best secure
               cell phone coverage available today. OIG surveyed 198 employees
               to whom secure cell phones were assigned and learned that most
               were either dissatisfied with the coverage, unaware about coverage
               because they had not tested it, or felt the coverage was inferior to
               that offered by their regular cell phone. Only 3 of the 19 used the
               secure cell phone as their primary agency cell phone. Of the 16
               who did not use the secure cell phone as a primary phone, 15 had
               a second agency cell phone that they used as their primary
               business cell phone. The 16th employee opted to use a personal
               cell phone for official business. Reasons provided for not using the
               secure cell phone as a primary phone included problems with
               coverage, concern over losing or damaging the secure cell phone,
               and the perception that the cell phones were for emergency use
               only.

               In general, regional users were less aware of and less satisfied with
               secure cell phone coverage than headquarters users. Only three of
               five regional users had tested coverage of the secure cell phones,
               and only one believed the coverage was comparable to the
               employee’s regular cell phone. Of 11 headquarters users, 7 had
               tested coverage and 4 thought the coverage was comparable to
               their regular cell phone. Of the 19 users, 6 shared their knowledge
               of dead spots with other users and 1 documented this information
               to share with others. Of those surveyed, only 2 had made an
               international call. A third person had tried unsuccessfully to make
               such a call.

               NRC recently purchased an additional 20 secure cell phones,
               costing $2,179 apiece, to use in headquarters and the regions.

                      International Capability Has Impact On Domestic
                      Coverage

               Some secure cell phone users may not be receiving the best
               coverage domestically because NRC opted to purchase phones
               and service that allow international coverage – even though these
               may not be the best choices for domestic coverage. According to
               staff who were involved in the selection process in 2002, a primary



8
 At the time the survey was conducted, NRC had assigned 20 phones to 19 employees (1
employee was assigned 2 phones). Of the 20 phones, 12 were assigned to headquarters
employees and 8 to regional employees.


                                            18
                                   Audit of NRC’s Telecommunications Program



factor was the interest by several individuals in being able to make
international calls. However, 16 of 19 NRC secure cell phone users
have never attempted to place an international call with these
phones and consequently failed to benefit from this feature.

Because NRC opted for secure cell phones and service that may
not be the best choice for domestic coverage, the phones failed to
work during several emergency exercises. During these exercises,
users were not successful in making desired connections even
though in at least one case the employee’s regular cell phone could
make the connection. In an additional example of phone failure, an
employee could not get coverage using the secure cell phone
during a hurricane.

       Coverage Could Be Improved

By selecting service plans for the regions and headquarters that
provide the best coverage for users in these different geographic
locations, NRC can better ensure that the secure cell phones
provide connectivity when needed. Furthermore, NRC should not
purchase any additional secure cell phones without evaluating
whether it would be advantageous to select phones that do not
allow international coverage, but which provide better coverage
domestically.

Recommendations

OIG recommends that the Executive Director for Operations:

8. Select secure cell phone service plans for the regions and
   headquarters that provide the best coverage for users in these
   different geographic locations.

9. If additional secure cell phones are purchased, select phones
   that will facilitate the best coverage for users in the regions and
   in headquarters.




                           19
                                                              Audit of NRC’s Telecommunications Program



D.    Unsecured Telephone Closets in Headquarters and at Technical
      Training Center

                 Auditors found unsecured telephone equipment closets at (1) NRC
                 headquarters and (2) the Technical Training Center. In
                 headquarters, three telephone closets were found either unlocked
                 or opened. These headquarters closets were unsecured because
                 NRC has not effectively enforced the requirement to keep the doors
                 locked and has not clearly conveyed to security guards the
                 requirement to check these doors daily. At the Technical Training
                 Center, the telephone closet is not secured because managers
                 allowed the telephone closet to remain behind an unlocked bi-fold
                 closet door. In either case, agency telephone systems and other
                 equipment maintained in these locations are vulnerable to
                 tampering.9

                 D.1      Headquarters Closets Were Found Unsecured

                          Security Requirements

                 NRC’s telecommunications systems are subject to the physical
                 security controls required by OMB Circular A-130, Appendix III,
                 “Security of Federal Automated Information Resources.” These
                 physical security requirements, detailed in MD and Handbook 12.5,
                 NRC Automated Information Security Program, specify that
                 telephone and wiring closets should be kept locked at all times
                 when unattended and that access should be restricted to a limited
                 number of accountable personnel.

                 National Institute of Standards and Technology publications also
                 emphasize the importance of physical security controls to prevent
                 unauthorized access to telephone closets and PBX facilities.
                 According to the Federal Agency Security Practices Agency IT
                 Security Handbook, telephone-wiring closets should be kept locked
                 and secured. National Institute of Standards and Technology
                 requirements state that telephone closet doors should be secured
                 with a cipher lock or suitable substitute at a minimum.

                          Three Headquarters Closets Were Unsecured

                 NRC headquarters telephone equipment closets were left
                 unsecured and unattended in several locations in the NRC
                 headquarters buildings.


9
 Auditors also reviewed physical security measures employed in the regions to protect their telephone
switches. Appendix B contains information on these security practices.


                                                    20
                                                          Audit of NRC’s Telecommunications Program



                Despite requirements to keep the telephone closets secured when
                unattended, OIG found three unsecured doors during a physical
                security inspection. These closets contain badge system wiring, air
                conditioning components, and other equipment.

                On December 14, 2004, the audit team performed an inspection of
                the 43 telephone closets and 2 telephone equipment rooms in the
                One and Two White Flint North headquarters buildings to ensure
                that the telecommunications equipment was protected from
                unauthorized access. Auditors noted that while each of the doors
                protecting these areas had access control features,10 two telephone
                closet doors in the One White Flint North building were unlocked
                because the override buttons were enabled, preventing the bolt
                from releasing to lock the doors. Auditors also found that a
                telephone closet door in the Two White Flint North building was left
                open for more than 2 hours on the day of the inspection. Auditors
                checked this closet several times over the 2-hour period and noted
                that no one was working inside or nearby. Furthermore, this closet
                had been seen open and unattended on several prior occasions.

                According to an OIS official, telecommunication contractors are
                instructed to lock the telephone closet doors whenever their work
                has been completed or they step out of the line of site of the doors.
                This official said that the contractors are also reminded of this
                policy whenever security guards inform OIS staff that security
                guards found telephone closets unlocked during their security
                checks. OIG notes that it is difficult at times to identify a specific
                individual responsible for leaving the closets unlocked and
                unattended because the closets are accessed by both
                telecommunications and Division of Facilities and Security
                contractors.11 However, the telecommunications services contract
                requires contractors to adhere with NRC security requirements to
                keep the telephone closet doors shut.




10
   Cipher locks are used to control access to the One and Two White Flint North telephone
equipment closets. The headquarters badge access control system controls access to the two
telephone equipment rooms. These rooms have this added level of access control because they
serve as the entry point for headquarters’ 5,388 telephone lines, which are used for employee
telephones, fax machines, modems, remote access to building management and security
systems, video and audio conferencing systems, computer systems, and systems for the hearing
impaired.
11
  Division of Facilities and Security contractors require access to the closets to perform work on
the headquarters badging system and air conditioning, which also run through the telephone
closets.


                                                21
                                  Audit of NRC’s Telecommunications Program



      OIS Lacks Enforcement Method

Headquarters NRC telephone equipment closets were left
unsecured because OIS lacks a method for ensuring that
contractors follow the security policy to keep the telephone closet
doors locked. Furthermore, the Office of Administration has not
provided clear guidance to NRC security guards on their
responsibility to routinely check these doors while conducting
patrols.

Although telecommunications contractors are reminded to lock the
telephone closet doors, and it is a contract requirement, OIS lacks
a method of enforcing this measure. OIG discussed this situation
with Office of Administration officials and learned that NRC could
issue contractors security infractions for leaving the doors
unlocked. A security infraction is an administrative action that NRC
takes when an employee or contractor fails to comply with NRC
security requirements. The issuance of three security infractions to
any one contractor could result in the loss of his or her ability to
work as a contractor at NRC. The telecommunications contract
would need to be modified to note enforcement of security policies
and the issuance of security infractions when telephone closet
doors are found unsecured. OIG also learned that NRC could fine
contractors for leaving the doors unsecured, provided the contract
is modified to include such a provision.

NRC’s security guard contract requires roving security guards to
check doors throughout the facility to ensure they are locked.
However, the post order for roving guards does not state this
specifically, which weakens the agency’s assurance that these
checks are occurring consistently and routinely. The post order
directs guards to check the computer room doors, but does not
mention the telephone closets. An Office of Administration official
said the computer closet check was specifically added to the post
orders because the guards need to check the temperature of the
rooms to ensure they are not too hot. The inclusion of the
requirement to check the telephone closet doors will help to ensure
the security policies are being enforced.

      Security Vulnerability

When any telephone closet door in One or Two White Flint North is
left unsecured, the phone system for that particular floor is
jeopardized because of how the system is wired. Tampering with




                          22
                                  Audit of NRC’s Telecommunications Program



telephone lines can expose the telephone phone switch to
penetration by a hacker. Furthermore, the badging and the air
conditioning systems are also vulnerable because they are also
located in the telephone closets.

D.2    Technical Training Center – Open Access to the
       Telephone Closet

       Security Requirement

As stated previously, MD 12.5 requires that telephone closets be
locked at all times and access to the telephone and wiring closets
be restricted to a limited number of accountable personnel.

       One Closet Is Unprotected

One of the Technical Training Center’s telephone equipment
closets is not appropriately protected. This closet is located behind
an unsecured bi-fold door within a supply room that is kept open
during the workday for the convenience of the professors and staff.
The closet door has no locking mechanism to control the access to
the telephone lines.

       Managers Did Not Enforce Agency Policy

The Technical Training Center telephone closet was not protected
because managers failed to enforce agency security policy for the
protection of telephone and wiring closets.

       Closet Is Vulnerable to Tampering

Unauthorized access to the Technical Training Center’s telephone
closet can allow for tampering and a disruption of telephone service
through the manipulation of the telephone lines housed in the
telephone closet. As noted previously, tampering can expose the
telephone switch to penetration by hackers. While the Technical
Training Center’s PBX is not located within the center’s office suite,
it does not diminish the need for the center’s managers to protect
the telephone lines once they have entered Technical Training
Center office space.

Summary

NRC has not effectively enforced its security policy to keep
telephone closets locked when unattended. Three telephone
closets were found unsecured in the One and Two White Flint



                          23
                                            Audit of NRC’s Telecommunications Program



        North buildings during a physical security inspection and the
        telephone closet at the Technical Training Center is not protected
        by a locking door. Failure to protect telephone lines exposes NRC
        to toll fraud, disclosure of sensitive information, or the disruption of
        service because the telephone switch becomes vulnerable to
        penetration.

        Recommendations

        OIG recommends that the Executive Director for Operations:

        10. Implement the existing security guard contract requirement to
            ensure the telephone closet doors are checked throughout the
            facility and add the requirement to check the telephone closet
            doors to the security guard post orders.

        11. Issue periodic written reminders to telecommunications
            contractors, and to other contractors who require access to the
            telephone closets, conveying the NRC security requirement to
            keep the telephone closet doors locked when the closets are
            unattended.

        12. Impose penalties, such as security infractions or fines, on
           individuals who do not adhere to the security requirement to
           keep the telephone closet doors locked.

        13. Install a locking door on the telephone closet within the
            Technical Training Center office suite to prevent unauthorized
            access to the telephone lines.


IV. AGENCY COMMENTS

        During an exit conference held May 18, 2005, the agency generally
        agreed with the findings and recommendations in this audit report
        and provided comments concerning the draft audit report. We
        modified the report as we determined appropriate in response to
        these comments. NRC reviewed these modifications and opted not
        to submit formal written comments to this final version of the report.




                                    24
                                             Audit of NRC’s Telecommunications Program



V. CONSOLIDATED LIST OF RECOMMENDATIONS

    OIG recommends that the Executive Director for Operations:

          1.     Purchase and implement billing review software to assist in
                 implementing a cost-effective, comprehensive
                 telecommunications billing review process.

          2.     Establish benchmarks for determining if telecommunications
                 charges are accurate and appropriate.

          3.     Revise MD and Handbook 2.3 to include effective
                 management controls over headquarters staff use of agency
                 telecommunications services.

          4.     Establish requirements for routinely conducting inventories
                 of telephone lines and circuits for which the agency pays
                 monthly recurring charges, assessing usage of these
                 telephone lines and circuits, and making adjustments to
                 account for unneeded telephone lines and circuits.

          5.     Define and enforce appropriate use of agency toll-free
                 numbers.

          6.     Develop and implement a communications plan to better
                 inform employees about the availability and benefits of using
                 calling cards.


    OIG recommends that the Chief Financial Officer:

          7.     Discontinue the $4 per day reimbursement option and issue
                 calling cards instead.


    OIG recommends that the Executive Director for Operations:

          8.     Select secure cell phone service plans for the regions and
                 headquarters that provide the best coverage for users in
                 these different geographic locations.

          9.     If additional secure cell phones are purchased, select
                 phones that will facilitate the best coverage for users in the
                 regions and in headquarters.




                                     25
                                  Audit of NRC’s Telecommunications Program



10.   Implement the existing security guard contract requirement
      to ensure the telephone closet doors are checked throughout
      the facility and add the requirement to check the telephone
      closet doors to the security guard post orders.

11.   Issue periodic written reminders to telecommunications
      contractors, and to other contractors who require access to
      the telephone closets, conveying the NRC security
      requirement to keep the telephone closet doors locked when
      the closets are unattended.

12.   Impose penalties, such as security infractions or fines, on
      individuals who do not adhere to the security requirement to
      keep the telephone closet doors locked.

13.   Install a locking door on the telephone closet within the
      Technical Training Center office suite to prevent
      unauthorized access to the telephone lines.




                         26
                                         Audit of NRC’s Telecommunications Program


                                                                      Appendix A
SCOPE AND METHODOLOGY

       Auditors reviewed NRC’s telecommunications program to evaluate
       (1) controls over the use of NRC telecommunications services and
       (2) the physical security of NRC telecommunications systems.

       Audit work excluded telecommunications associated with incident
       response operations because this program was the subject of a
       recent OIG review. Auditors assessed physical security measures
       employed by headquarters, the regions, and the Technical Training
       Center to protect their telephone equipment, but did conduct
       penetration testing on agency telecommunications systems.
       Penetration testing did not occur because anticipated assistance
       from a National Security Agency telecommunications expert was
       unavailable during the audit timeframe.

       Auditors reviewed and analyzed Federal guidance, agency
       directives, and security standards to establish the internal controls
       over telecommunication services and requirements for the security
       of the telecommunications system. A review of the draft MD and
       Handbook 2.3 was performed to provide OIS staff with
       recommendations for updating the instruction.

       Auditors analyzed the feasibility of requiring employees to use
       calling cards for calls home while on travel instead of claiming a $4
       charge per day for 5-minute telephone calls home. Travel
       reimbursements paid during the month of September 2004 were
       reviewed to estimate the number of $4 reimbursements claimed for
       telephone calls and the amount paid by the agency for calls home
       made by employees on temporary duty travel.

       Auditors performed a security inspection of headquarters, regional
       office, and Technical Training Center telephone equipment rooms
       and closets to assess protection provided to the
       telecommunications equipment. Interviews of headquarters,
       regional office, and Technical Training Center telecommunications
       staff were conducted to learn about the management and
       administration of the telecommunications program. In addition,
       auditors interviewed agency security staff to determine the
       implementation of security requirements with respect to the
       telecommunications equipment.




                                 27
                               Audit of NRC’s Telecommunications Program



This review was conducted from July 2004 to January 2005 in
accordance with generally accepted Government auditing
standards. Internal control weaknesses have been noted and
considered for reporting. The work was conducted by Beth
Serepca, Team Leader; Shyrl Coker, Audit Manager; and Judy
Gordon, Audit Manager.




                        28
                                          Audit of NRC’s Telecommunications Program


                                                                       Appendix B


PHYSICAL SECURITY MEASURES FOR REGIONAL PBX
SWITCHES

        OIG found that each of the regions are implementing the physical
        security and access controls required by the National Institute of
        Standards and Technology (NIST) and MD and Handbook 12.5 for
        the protection of the PBX telephone switches, therefore no
        recommendations are made in this area. The telephone switches
        are secured in locked equipment rooms, password controls are
        exercised, and modems are kept disconnected to prevent
        unauthorized remote access to the telephone switch. The
        implementation of these physical security and access controls
        protects the regions from vulnerabilities associated with the use of
        unprotected telephone switches such as toll fraud, the theft of
        proprietary, personal, and other sensitive information as well as
        eavesdropping.

        OIG was unable to perform penetration tests of NRC’s
        telecommunication system because of the unavailability of an
        expert from the National Security Agency.

        PBX Security Requirements

        Security measures for PBX systems are issued in NIST Special
        Publication 800-24 PBX Vulnerability Analysis. NIST specifically
        stipulates that the PBX and its network equipment should be
        secured to protect it from damage and unauthorized access or use
        through the use of locked doors, automatic detection devices, and
        positive identification and authentication controls. NIST guidance
        further states that access to the PBX should be minimized to
        include authorized personnel only, and that password management
        is essential to good security. The passwords themselves should be
        controlled so that they expire after a period of time. NIST further
        warns that because PBXs typically require remote maintenance by
        vendors, remote access should normally be blocked. These
        physical security and access control measures are included in MD
        and Handbook 12.5 and are provided on the Federal Agency
        Security Practices web site for the application of Federal security
        professionals.




                                  29
                                                Audit of NRC’s Telecommunications Program



              Regions Implemented Protections

              The regions have either implemented all of the required PBX
              protections or are using a PBX managed by another entity that has
              implemented all of the suggested protections. Regions I, III, and IV
              have possession of their own PBX telephone switches, and these
              are directly managed by the regional Information Resources Branch
              staff. Region II, located in a GSA-leased building, pays for the use
              of GSA’s PBX telephone switch as part of its lease agreement for
              office space.


              Physical Security and Access Controls Implemented

              Maintained in     Password           Limited      Prevent
              Locked Space      Controls           Access to    Remote
                                                   PBX Software Access

Regions I,    Card access       Passwords          2 to 3 people       Modems are
III, and IV   control systems   changed every      have access         physically
              or key used to    30 to 90 days      to the PBX          disconnected
              secure the PBX                       software


Region II     Alarmed doors     Passwords          Access is           Modems are
through       with cameras      changed            limited to GSA      physically
GSA                             periodically in    telephone           disconnected
                                accordance with    technicians
                                GSA                and their
                                requirements       supervisor




                                        30
